No. 19-1263

 

In the
Supreme Court of the Anited States

Mark Thompson
Petitioner,

v.

Board of Education City of Chicago, et al.
Respondents,

WAIVER

1. IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari
unless one is requested by the Court.

2. There are multiple respondents, and I do not represent all respondents. Please enter
my appearance as Counsel of Record for the following respondent: JANE DOE.

3. _ Tam a member of the Bar of the Supreme Court of the United States.
ALo
Ala fat

Mr. Christopher A. Garcia

Garcia Law Group

20 Danada Square Rd. West, Suite 221
Wheaton, IL 60817

312.536.7438

 

yy
6 Sor ced — May 16, 2020

  

Please send a copy of this to Petitioner, who is pro se, and to the following service list:

Thomas E. Doyle Joseph E. Comer

Board of Education City of Chicago Barker, Castro, Kuban & Steinback LLC
1 North Dearborn Street, Suite 900 303 West Madison Street, Suite 700
Chicago, IL. 60602 Chicago, IL. 60603

tadoyle2@cps.edu jcomer@bclawllc.com

Attorney for Harold Ardell, Linda Brown, — Attorney for Dr. Claudia P. Welke
Forrest Claypool, Reginald Evans, and Northshore University

Thomas Krieger, James Sullivan
and Alicia Winkle
